OFFICE OF INSPECTOR GENERAL



AUDIT OF FUNDS EARMARKED
BY CONGRESS TO PROVIDE
ASSISTANCE FOR DISPLACED
PERSONS IN AFGHANISTAN

AUDIT REPORT NO. 9-306-06-004-P
DECEMBER 21, 2005




WASHINGTON, DC

Office of Inspector General


December 21, 2005

MEMORANDUM

TO:                  USAID/Afghanistan Mission Director, Alonzo Fulgham

FROM:                IG/A/PA Director, Steven H. Bernstein /s/

SUBJECT:             Audit of Funds Earmarked by Congress to Provide Assistance for Displaced
                     Persons in Afghanistan (Report No. 9-306-06-004-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments on our draft report and have included your comments in their entirety in
Appendix II.

This report includes three recommendations to ensure that approximately $14.4 million in
unspent earmarked funds are used for their intended purpose. In your written comments and
subsequent e-mail correspondence, you concurred with two of the three recommendations.

Regarding Recommendations No. 1 and 2, we determined that the planned actions which you
described in your comments and subsequent e-mail correspondence—when implemented—will
address our concerns. Furthermore, you concurred with the approximate balance of $9.366 million
in potential savings/better use of funds that will result from implementation of Recommendation
No. 1. Accordingly, management decisions have been reached on both Recommendations No. 1
and 2. Please coordinate final action on these recommendations with USAID’s Office of the Chief
Financial Officer—Audit, Performance and Compliance Division.

In its response to the draft report, USAID/Afghanistan did not agree with Recommendation No. 3
and suggested revisions to Recommendation No. 3 because it modified its plan for the use of the
$5 million in that recommendation. As a result, we modified Recommendation No. 3 for the final
report to address this change. However, to reach a management decision, USAID/Afghanistan
needs to notify us of its agreement with both the recommendation and the dollar amount in the
recommendation. Please provide written notice within 30 days of any additional actions planned or
taken to implement this recommendation.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


Audit Objective .................................................................................................................. 2 


       Did USAID/Afghanistan use the fiscal year 

       2004 and fiscal year 2005 earmarked funds 

       for the intended purpose of providing 

       emergency shelter and basic necessities 

       to displaced Afghans? 


Audit Findings ................................................................................................................. 3 


     Fiscal Year 2004 Funds Need To Be
     Redirected .................................................................................................................. 3

     Transfer of Fiscal Year 2005 Funds
     Needs To Be Completed ............................................................................................. 7 


Evaluation of Management Comments ......................................................................... 9 


Appendix I – Scope and Methodology ........................................................................ 10 


Appendix II – Management Comments ....................................................................... 12 

SUMMARY OF RESULTS

In the fall of 2003 President Bush signed Public Law 108-106, which appropriated
emergency supplemental funds for the defense and reconstruction of Iraq and
Afghanistan in fiscal year (FY) 2004. Included in this appropriation was a Congressional
directive1 stating that not less than $10 million be made available for emergency shelter
materials and basic necessities for displaced Afghans in and around Kabul. Similarly, in
May 2005, President Bush signed Public Law 109-13, which included a $5 million
earmark for assistance for displaced persons in Afghanistan together with a
Congressional directive stipulating that none of these funds be used to support a satellite
city housing project (see page 2).

On June 30, 2005, Congress requested that USAID and Department of State Inspectors
General investigate the decision to establish a satellite city outside Kabul as the primary
means of relieving the dire housing shortage for displaced Afghans. The Department of
State’s Office of Inspector General agreed to review how the decision to develop a
satellite city was reached, while USAID’s Office of Inspector General agreed to conduct
an audit and report on how the FY 2004 and FY 2005 appropriated funds were used
(see page 2).

As of September 30, 2005, only $600,000 of the $10 million appropriated for FY 2004
had been used to provide shelter materials and basic necessities for displaced persons
in Kabul (see page 3). Additionally, as of September 30, 2005, although Congress had
been notified that the funds would be transferred to the Department of State’s Bureau of
Population, Refugees, and Migration, none of the $5 million appropriated for FY 2005
had been transferred or spent by the Mission2 (see page 7).

This report includes three recommendations to ensure that the remaining balance of
approximately $14.4 million in unspent earmarked funds is used for its intended purpose
(see pages 7 and 8). Management concurred with two of the three recommendations,
as well as with the approximate balance of $9.366 million in potential savings/better use of
funds that will result from implementation of Recommendation No. 1. Management
decisions have been reached on two of the three recommendations. See page 9 for our
evaluation of management comments.

Management comments are included in their entirety in Appendix II.



1
  A Congressional earmark places legal requirements on how appropriated funds are spent.
Although a Congressional directive is not a legal restriction, it does stipulate Congress’ intent as
to how the funds should be spent. It should be noted that while the FY 2005 $5 million
appropriation was “earmarked”, the FY 2004 $10 million appropriation included a directive but not
an earmark. For readability purposes, however, the term “earmark” will be used in this report for
both earmarked and directed funds.
2
  As discussed on page 8, after the end of audit fieldwork, the Mission—in coordination with
Department of State’s Bureau of Population, Refugees, and Migration—modified its plans for the
use of the $5 million and now intends to direct $1.5 million of these funds to USAID’s Office of
Foreign Disaster Assistance.


                                                                                                  1
BACKGROUND

On November 6, 2003, President Bush signed Public Law 108-106, which appropriated
emergency supplemental funds for the defense and reconstruction of Iraq and
Afghanistan for fiscal year (FY) 2004.          Included in this appropriation was a
Congressional directive stating that not less than $10 million be made available through
appropriate humanitarian organizations for additional food, clothing, heating and cooking
fuel, emergency shelter materials, and other basic necessities for displaced Afghans in
and around Kabul.

On May 11, 2005, President Bush signed Public Law 109-13, which appropriated
emergency supplemental funds for defense, the war on terror, and tsunami relief for FY
2005. Included in this appropriation, was a $5 million earmark for assistance for
displaced persons in Afghanistan, as well as a Congressional directive stipulating that
none of these funds be used to support a satellite city housing project.

Congress appropriated these emergency supplemental funds to assist in meeting the
urgent humanitarian and housing needs of displaced Afghans living in temporary,
inadequate housing. As of September 30, 2005, the United Nations High Commissioner
for Refugees estimated that there were one million Afghans with unmet shelter and basic
necessity needs for the upcoming winter of 2005-2006. Additionally, the United Nations
estimated that there are over three million Afghan refugees in Pakistan and more in Iran,
many of whom will be forced to return to Afghanistan over the next several years. It is
estimated that approximately 80 percent of these returnees do not own land and will
require shelter and other basic necessities.

Using other appropriated funds for disaster assistance, USAID’s Office of Foreign
Disaster Assistance (OFDA) funded grants totaling approximately $5.3 million in FY
2003—providing emergency shelter assistance to over 170,000 displaced Afghans. In
FY 2004, OFDA funded grants totaling approximately $4.8 million—providing emergency
shelter to over 100,000 displaced Afghans. However, in FY 2005, OFDA did not fund
any emergency shelter activities in Afghanistan.

AUDIT OBJECTIVE
The Office of Inspector General’s Performance Audits Division conducted this audit as a
result of a June 30, 2005 Congressional request to answer the following:

   •	 Did USAID/Afghanistan use the fiscal year 2004 and fiscal year 2005 earmarked
      funds for the intended purpose of providing emergency shelter and basic
      necessities to displaced Afghans?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                       2
AUDIT FINDINGS

As of September 30, 2005, only $600,000 of the $10 million appropriated for fiscal year
(FY) 2004 had been spent to provide basic necessities for displaced persons in Kabul.
None of the $5 million appropriated for FY 2005 had been spent; USAID notified
Congress in June 2005 that these funds would be transferred to the Department of
State’s Bureau of Population, Refugees, and Migration in Afghanistan (DOS/PRM).

Fiscal Year 2004 Funds
Need To Be Redirected

    Summary: The FY 2004 emergency appropriation stipulated that not less than $10
    million be made available for shelter materials and basic necessities for displaced
    Afghans in and around Kabul. However, as of September 30, 2005, only $600,000
    of this $10 million had been spent to provide these basic necessities. This was
    because USAID obligated the balance of $9.4 million under a Limited Scope Grant
    Agreement with plans to use the funds for the development of the “Chil
    Dukhtaran/Satellite City” housing project.3 As a result, the $9.4 million was not
    used to provide emergency shelter and basic necessities for displaced Afghans.

On November 6, 2003, President Bush signed Public Law 108-106, which appropriated
emergency supplemental funds for the defense and reconstruction of Iraq and
Afghanistan in FY 2004. Included in this appropriation was a Congressional directive
stating that not less than $10 million be made available through appropriate
humanitarian organizations for additional food, clothing, heating and cooking fuel,
emergency shelter materials, and other basic necessities for displaced Afghans in and
around Kabul.

Of these funds, $600,000 was allocated to the Department of State, which, according to
the Department of State, used the funds to provide emergency medical assistance and
basic necessities to over 20,000 displaced persons in and around Kabul. For example,
three mobile health centers were established, serving approximately 30 persons a day.
These centers also provided at least ten health education classes each month.
Additionally, over 1,700 families—approximately 10,500 individuals—received short-term
“winterization” kits, which included non-food items such as plastic sheeting for windows,
blankets, cooking gas or oil, and various hygienic items.

The balance of $9.4 million was allocated to USAID/Afghanistan. Considering the
extensive housing needs for the large number of displaced persons in and around
Kabul—including approximately 3,300 families that did not have any claim to land and
who were living in an unhealthy environment—U.S. Government officials, in coordination
with an inter-agency group of Afghan government officials, decided to use the funds for a
permanent housing development outside of Kabul that targeted a specific group of

3
  The “Chil Dukhtaran/Satellite City” housing project was intended to provide a long-term housing
solution for displaced persons in Kabul. The Department of State’s Office of Inspector General
reviewed the decision to develop this satellite city, while USAID’s Office of Inspector General
audited how the emergency appropriations were spent.


                                                                                               3
Afghans. This targeted group of Afghans consisted of returnees who did not have claim
to property anywhere in Afghanistan, who originally came from Kabul, and who had been
unable to qualify for other housing assistance, such as transitional shelter initiatives,
because they did not own property on which to build. With this in mind, in December
2004, USAID obligated the $9.4 million under a Limited Scope Grant Agreement with the
Government of Afghanistan. In June 2005, $5 million of this amount was sub-obligated
under a Participating Agency Program Agreement with the U.S. Army Corps of
Engineers, and as of September 30, 2005, approximately only $34,000 was spent.
However, none of these funds provided shelter materials or other basic necessities to
displaced persons.4

The following photographs are examples of a winterized temporary shelter with broken
windows covered with plastic sheeting and a temporary settlement for displaced
Afghans.




         Photograph taken October 13, 2005 by an OIG auditor of a “winterized”
         temporary settlement in an abandoned building in Kabul.




4
  Included in the $34,000 were costs associated with the Chil Dukhtaran project, for example,
survey, title, and town planning costs.


                                                                                           4
         Photograph taken October 10, 2005 by an OIG auditor of a temporary settlement
         in Kabul.



The housing development—which was named Chil Dukhtaran and is also referred to as
the Satellite City project—however, was beset with a series of challenges. The most
significant challenges included:

    •	 Escalating costs—a February 2005 project description estimated the cost of the
       project to be $19.4 million, including an estimate of $4 million for the water supply
       portion of the project.5 However, during our audit, the contractors estimated that
       the water portion of the project would total $4.9 million, increasing the cost for the
       entire project to $20.3 million.

    •	 Land titling issues—there was at least one large occupied house on the project
       site. The contractors cannot begin full surveying work or underground de-mining
       until the occupants of the house are removed. Furthermore, when construction
       begins at the project site, other title claims may arise.

    •	 Water issues—there have been disputes with neighboring villages over water
       rights.

    •	 Risks from unexploded ordinance—although the land has been cleared of
       surface mines, construction will require sub-surface de-mining.


5
  Of this $19.4 million, $9.4 million was obligated from the FY 2004 emergency supplemental
appropriation under audit. The balance of the funds for the Chil Dukhtaran project, including the
funding for the water supply portion of the project, either was obligated or was to be obligated
from other appropriated fund sources.


                                                                                               5
Photograph taken on October 11, 2005 by an OIG auditor of the water reservoir
under construction.




Photograph taken October 11, 2005 by an OIG auditor of the compound—
identified by the red arrow—located on the Chil Dukhtaran housing development
site.




                                                                                6
In addition, the estimated completion date of the project was June 2007, resulting in
unmet shelter needs for displaced Afghans throughout the winters of 2005 and 2006. In
light of these considerations, during the course of our audit, USAID/Afghanistan, with
Embassy support, decided to cancel the Chil Dukhtaran/Satellite City project.

Nevertheless, as a result of the focus on and obligation of funds to the Chil
Dukhtaran/Satellite City project, $9.4 million of the $10 million under the FY 2004
emergency appropriation was not used to provide immediate shelter and basic
necessities to displaced persons in and around Kabul. Accordingly, we are making the
following recommendations to ensure that the remaining balance of approximately
$9.366 million6 from the FY 2004 emergency appropriation is used as Congress
intended.

     Recommendation No. 1: We recommend that USAID/Afghanistan, for the $9.4
     million obligated under the Limited Scope Grant Agreement and to fund
     specifically identified assistance activities for displaced Afghans in and around
     Kabul: (a) reprogram the balance of approximately $4.966 million that was sub-
     obligated under the Participating Agency Program Agreement and (b) sub-
     obligate the $4.4 million not yet sub-obligated.

     Recommendation No. 2:           We recommend that USAID/Afghanistan, in
     coordination with the Department of State’s Bureau of Population, Refugees, and
     Migration, develop a plan to use the balance of approximately $9.366 million to
     meet the basic necessities of displaced Afghans in and around Kabul.

Transfer of Fiscal Year 2005
Funds Needs To Be Completed

    Summary: The FY 2005 emergency appropriation included a $5 million earmark for
    assistance for displaced persons in Afghanistan and stipulated that none of these
    funds be used to support a satellite city housing project. However, as of
    September 30, 2005, none of the $5 million had been spent to assist displaced
    Afghans. This was due to USAID/Afghanistan allocating funds to other competing
    Mission priorities. As a result, $5 million of the basic needs for displaced persons
    in Afghanistan were not met.

On May 11, 2005, President Bush signed Public Law 109-13, which appropriated
emergency supplemental funds for defense, the war on terror, and tsunami relief for FY
2005. Included in this appropriation was a $5 million earmark for assistance for
displaced persons in Afghanistan, as well as a Congressional directive stipulating that
none of these funds be used to support a satellite city housing project. Additionally,
Congress requested to be consulted prior to the obligation of these funds.

As of September 30, 2005, none of the $5 million appropriated for FY 2005 had been
spent. Congress was, however, notified on June 16, 2005, through a Department of
State report, on the proposed use of these funds. The report stated that DOS/PRM

6
 $9.366 million equals $9.4 million obligated, less $34,000 spent under the Participating Agency
Program Agreement for Chil Dukhtaran.


                                                                                                   7
would fund low-cost, permanent shelter for displaced Afghans and that the assistance
would focus on areas of high refugee and internally displaced person return.
Additionally, the report stated that small-scale, local infrastructure in support of shelter
construction—such as water and sanitation services—may also be included. The report
stated that the funding would begin in time for the 2005 summer/fall building season.

However, as of September 30, 2005 none of the $5 million had been transferred from
USAID to DOS/PRM. USAID/Afghanistan had not transferred the funds because, as of
September 30, 2005, it had not received 100 percent of its FY 2005 appropriation from
the Office of Management and Budget (OMB). Furthermore, the Mission was waiting for
Department of State to request the funds transfer.7 Thus, USAID/Afghanistan allocated
the funds received from OMB to other Mission priorities rather than to DOS/PRM. As a
result, $5 million of assistance for displaced persons in Afghanistan was not provided.

As discussed in the evaluation of management comments and stated in management’s
response to our draft report, after the end of audit fieldwork, the Mission modified its plan
for the use of the $5 million. As indicated in its response, the Mission now plans to
transfer $1.5 million to USAID’s Office of Foreign Disaster Assistance for immediate
humanitarian relief for winterization needs and will allocate the balance of $3.5 million to
DOS/PRM for low-cost permanent shelter.

Accordingly, we are making the following recommendation to ensure that Congress is
notified of the Mission’s modified plan to spend the $5 million FY 2005 appropriation and
to ensure that these funds are used as Congress intended.

    Recommendation No. 3: We recommend that USAID/Afghanistan inform
    Congress, as appropriate, of its plans to use the $5 million earmarked in fiscal
    year 2005 for assistance to displaced Afghans and use these funds for this
    assistance, as Congress intended.




7
 On October 6, 2005, during the course of our audit, the Department of State sent USAID a draft
memorandum of understanding for the 632(a) transfer of the $5 million in FY 2005 emergency
supplemental funds.


                                                                                             8
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report and subsequent e-mail correspondence,
USAID/Afghanistan concurred with Recommendation Nos. 1 and 2. The Mission did not
agree with Recommendation No. 3 because, after the end of audit fieldwork, the Mission
changed its plans for using the $5 million fiscal year 2005 appropriated funds.

In agreeing with Recommendation No. 1, USAID/Afghanistan plans to reprogram, by
March 31, 2006, the balance of approximately $4.966 million sub-obligated under the
Participating Agency Program Agreement. It also plans to reprogram, by March 31,
2006, the remaining $4.4 million not yet sub-obligated. The Mission intends to use these
funds—totaling approximately $9.366 million—for activities for displaced Afghans in and
around Kabul. Accordingly, a management decision has been reached for this
recommendation.

In its response to Recommendation No. 2, USAID/Afghanistan agreed to develop, by
March 31, 2006, a plan to use the balance of approximately $9.4 million to meet the
basic necessities of displaced Afghans in and around Kabul.          Accordingly, a
management decision has been reached for this recommendation.

USAID/Afghanistan did not agree with Recommendation No. 3, as it was worded in our
draft report, because, after the end of audit fieldwork, the Mission changed its plans for
using the $5 million fiscal year 2005 appropriated funds. Initially, USAID/Afghanistan
had planned to transfer the entire balance of $5 million to DOS/PRM and had notified
Congress of this intent. Nevertheless, after the end of our fieldwork and in response to
Recommendation No. 3 in our draft report, the Mission informed us of changes in its
plans for the use of these funds. Instead of transferring the entire $5 million to
DOS/PRM for low-cost permanent shelter, the Mission was planning to transfer only $3.5
million to DOS/PRM, with the remaining $1.5 being transferred to USAID’s Office of
Foreign Disaster Assistance. Based on this new information, we modified our
recommendation. As a result, a management decision has not been reached on
Recommendation No. 3. To reach a management decision, USAID/Afghanistan needs
to notify us of its agreement with both the recommendation and the dollar amount in the
recommendation.

Management comments are included in their entirety (without subsequent e-mail
correspondence) in Appendix II.




                                                                                        9
                                                                                 APPENDIX I 




SCOPE AND METHODOLOGY

Scope

The Office of Inspector General’s Performance Audits Division conducted this audit in
accordance with generally accepted government auditing standards. This audit was
conducted as a result of a Congressional request. The audit was designed to answer
the question: Did USAID/Afghanistan use the fiscal year 2004 and 2005 earmarked
funds for the intended purpose of providing emergency shelter and basic necessities to
displaced Afghans?

In planning and performing the audit, we assessed the effectiveness of internal controls
related to the audit objective. We identified pertinent internal controls as the Mission’s
procedures related to the use of earmarked funds and inter-agency coordination for the
timely transfer of emergency supplemental funds. We reviewed relevant criteria,
including Public Laws 108-106 and 109-13 and the Government Accountability Office’s
Standards for Internal Control in the Federal Government.

There were no prior audit findings affecting the areas reviewed in this audit.

Our audit scope included:

    •	 The $10 million included in the FY 2004 emergency supplemental
       appropriation—which stipulated that not less than $10 million be made available
       for basic necessities for displaced Afghans in and around Kabul.
    •	 The $5 million earmarked in FY 2005 for assistance for displaced persons in
       Afghanistan.
    •	 The Chil Dukhtaran/Satellite City project.

This report summarizes the results of our audit work. Fieldwork was conducted at
USAID/Afghanistan in Kabul and at various temporary settlements, winterization places,
and the Chil Dukhtaran/Satellite City project site from October 3 through October 14,
2005. In addition, we gathered background and criteria information from USAID’s offices
and personnel in Washington.

Methodology
To answer the audit objective, we conducted interviews with management officials at
USAID/Washington and USAID/Afghanistan; Department of State’s Bureau of
Population, Refugees, and Migration; the Office of the United Nations High
Commissioner for Refugees; the U.S. Army Corps of Engineers; the contractor
responsible for the water supply portion of the Chil Dukhtaran project; and various
Government of Afghanistan ministry officials.

We also reviewed pertinent documentation, such as USAID’s Participating Agency
Program Agreement with the U.S. Army Corps of Engineers, its Limited Scope Grant
Agreement with the Government of Afghanistan, and various documents related to the
Chil Dukhtaran project. In addition, we conducted site visits to several temporary


                                                                                         10
                                                                          APPENDIX I 



settlements and winterization places in Kabul, as well as to the Chil Dukhtaran project
site.

We did not determine materiality thresholds for our audit objective, as they were not
appropriate to this audit.




                                                                                    11
                                                                                APPENDIX II




                 USAID AFGHANISTAN
                 FROM THE AMERICAN PEOPLE




MEMORANDUM

TO:              IG/A/PA Acting Director, Jacqueline Bell

FROM:            Acting Mission Director, Barry Primm /s/

SUBJECT:         Management Comments to IG’s Draft Report on Audit of Funds
                 Earmarked by Congress to Provide Assistance for Displaced Persons in
                 Afghanistan (Report No.9-306-06-00X-P)

We appreciate the opportunity to respond to the subject draft report. The Mission concurs
with recommendations 1 & 2 and requests modification of 3 based on changed
circumstances. The following are the actions taken by the Mission in response to the
following recommendations:

Recommendation No. 1: We recommend that USAID/Afghanistan, for the $9.4 million
obligated under the Limited Scope Grant Agreement (LSGA) and to fund specifically
identified assistance activities for displaced Afghans in and around Kabul: (a) reprogram
the balance of approximately $4.966 million that was sub-obligated under the Participating
Agency Program Agreement and (b) sub-obligate the $4.4 million not yet obligated.

Action Taken: The Mission is taking action to de-subobligate approximately $4.97 million
obligated under the Participating Agency Program Agreement (PAPA). A MAARD is in
clearance to this effect and once approved, action will be taken to reprogram the funds.

 We expect the de-obligation under the PAPA to be completed by December 31, 2005 and
reprogramming of the funds by March 31, 2006.

Recommendation No. 2: We recommend that USAID/Afghanistan, in coordination with
the Department of State’s Bureau of Population, Refugees, and Migration (PRM), develop
a plan to use the balance of approximately $9.366 million to meet the basic necessities of
displaced Afghans in and around Kabul.

Action Taken: The Mission has informed USAID/Washington and Government of
Afghanistan of its intention to cancel the Chil Duktaran Satellite Housing Program. The
Mission in coordination with PRM plans to use up the funds freed up by the closure of the
Chil Duktaran project for shelter and supporting projects in five of the six provinces most
impacted by displaced Afghans. This includes Paktya, Khost, Nangarhar, Logar and
Kabul. These provinces are included in the Government of Afghanistan’s land distribution
plan which allows for provision of land to build shelter for the most needy. The Mission will
have a plan to use funds by March 31, 2006.

Recommendation No. 3: We recommend that USAID/Afghanistan, in coordination with the
Department of State’s Bureau of Population, Refugees, and Migration, complete the 632(a)


                                                                                           12

transfer of the $5 million appropriated for assistance to displaced Afghans.

Mission Comments:- The Mission does not agree with the language of the finding since
there has been a change in the plan to utilize the funds since the departure of the auditors.
Initially the Mission had plans to transfer the entire $5 million to State PRM, However in
coordination with PRM, a decision has been taken to transfer $1.5 million to OFDA for
immediate humanitarian relief for winterization needs. The balance of $3.5 million will be
transferred to PRM to address shelter needs.

We therefore suggest that the finding should be modified to

We recommend that USAID/Afghanistan, in coordination with the Department of State’s
Bureau of Population, Refugees, and Migration utilize $5 million appropriated for
assistance to displaced Afghans.

Closure of recommendations 1, 2 and 3 will be requested once the planned actions
reported above are taken.




                                                                                           13
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
